        October 30, 2002




   Financial Management

   Validity of Registration in the Central
   Contractor Registration Database
   (D-2003-018)




             Office of the Inspector General
                          of the
                 Department of Defense

                                Constitution of the
                              United States of America

No Money shall be drawn from the Treasury, but in Consequence of Appropriations
made by Law; and a regular Statement and Account of the Receipts and Expenditures
of all public Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CAGE                  Contractor and Government Entity
CCR                   Central Contractor Registration
IG DoD                Inspector General of the Department of Defense
DFARS                 Defense Federal Acquisition Regulation Supplement
DFAS                  Defense Finance and Accounting Service
EFT                   Electronic Funds Transfer
MOCAS                 Mechanization of Contract Administration Services
TIN                   Taxpayer Identification Number
VPIS                  Vendor Pay Inquiry System
         Office of the Inspector General of the Department of Defense
Report No. D-2003-018                                                  October 30, 2002
  Project No. D2000FI-0151.001

             Validity of Registration in the Central Contractor
                           Registration Database

                                 Executive Summary

Who Should Read This Report and Why? Defense Finance and Accounting Service
management responsible for policy and procedures for paying contractors and vendors,
and personnel responsible for making those payments should read this report. The
report identifies noncompliance with the requirement that recipients of Government
funds be properly registered in the Central Contractor Registration database. Payments
to nonregistered vendors increase the potential for fraud and hinder the efforts for debt
recovery and collection of income taxes.

Background. DoD makes 11 million commercial payments totaling more than
$150 billion annually. In the early 1990s any contractor or vendor who wanted to do
business with more than one DoD site was required to submit the same business
information to each and every site. To reform payment processes, DoD identified a
centralized, electronic registration process known as Central Contractor Registration
database as the single point of entry for vendors that want to do business with DoD.
Because DoD is the largest purchaser of goods and services in the world, there was a
cost savings to be realized by streamlining these administrative processes. The Central
Contractor Registration database was created to be the single repository of vendor data
for the entire DoD to avoid this administrative duplication and allow contractors to take
responsibility for the accuracy of their own important business information by
supplying it directly to the Government through a single registration.

We compared data available in the Central Contractor Registration database during the
month of June 2001 with data available in the payment system databases from March
through July of 2001. Approximately one third of the payments were made to
contractors or vendors whose identity codes did not match the identity codes listed in
the Central Contractor Registration database. We considered the mismatched identity
codes an indicator of increased risk that those contractors did not have valid tax
identification numbers listed in the Central Contractor Registration database.

Results. DoD did not adequately implement a recommendation in a prior audit report
requiring contracting officers to obtain tax identification numbers and provide them to
DoD paying offices. A judgmental review of 4,607 payments with mismatched identity
codes showed 1,297 payments, totaling $270.4 million, were made to contractors and
vendors that were not properly registered in the Central Contractor Registration
database at the time of payment. As a result, the tax identification numbers were not
available to report contractor and vendor payments to the Internal Revenue Service for
income taxes and for debt recovery. The lack of taxpayer identification number
information also exposed the payment systems to potential fraud. If the DoD withheld
payment from contractors and vendors who are not properly registered in the Central
Contractor Registration database, it would motivate contractors and vendors to ensure
the availability of correct tax identification information (finding A).
A judgmental review of 1,033 vendor payments made between March and July 2001
showed that the Defense Finance Accounting Service made 327 check payments for
$1.2 million that should have been made by electronic funds transfer. Defense Finance
Accounting Service also made 18 payments totaling $126,694 by check that should have
been made using the Online Payments and Collection System. As a result, the Defense
Finance Accounting Service payment processes were not in full compliance with
Title 31, United States Code 3332 and are incurring higher costs for making payments
by check. Requiring that all contractors and vendors be properly registered in the
Central Contractor Registration database and paid by electronic funds transfer would
meet the intent of the United States Code, reduce error, and save time and money
(finding B).

Management Comments. The Director, Commercial Pay Services at Defense Finance
and Accounting Service concurred and agreed that a method or process is needed to
ensure that the Government’s interest is protected from unlawful misappropriation of
funds, and proper tax liabilities are assessed when disbursements are made to
contractors or vendors. The Director agreed to use an existing query application
specific to contractor pay to extract an exception report for contractors not properly
registered in the Central Contractor Registration database. The Director also agreed to
refine and continuously monitor the manual processes related to ensuring that vendors
are properly registered with a valid tax identification number in the Central Contractor
Registration database. Management actions are to be completed by
December 31, 2002. See the Management Comments section for the complete text of
management comments.




                                           ii
Table of Contents

Executive Summary                                                          i


Background                                                                1


Objectives                                                                2


Findings
     A. Validity of Registration in the Central Contractor Registration
          Database                                                        4
     B. Payments Using Electronic Funds Transfer                          9

Appendixes
     A. Scope and Methodology                                             13
          Management Control Program Review                               15
     B. Prior Coverage                                                    17
     C. Report Distribution                                               18

Management Comments
     Defense Finance and Accounting Service                               21
Background
    Central Contractor Registration. DoD makes 11 million commercial
    payments totaling more than $150 billion annually. In the early 1990s, any
    contractor or vendor who wanted to do business with more than one DoD site
    was required to submit the same business information to each individual site.
    This redundancy of paperwork not only created an administrative burden for the
    Government and the vendor, but also was a major source of administrative error
    and expense in terms of both time and money. As a result, the President issued
    a memorandum in October 1993 mandating that Government reform its
    acquisition processes. Subsequently, the Federal Acquisition Streamlining Act
    of 1994 was passed, requiring the establishment of a “single face to industry.”
    To reform payment processes, DoD identified a centralized, electronic
    registration process known as the Central Contractor Registration (CCR)
    database as the single point of entry for vendors that want to do business with
    DoD. The CCR database was created to be the single repository of vendor data
    for the entire DoD to avoid duplicate reporting of business information and
    allow contractors to take responsibility for the accuracy of their own important
    business information by supplying it directly to the Government through a single
    registration. Because DoD is the largest purchaser of goods and services in the
    world, cost savings should be achieved by streamlining these administrative
    processes.

    Corporate Electronic Funds Transfer. The Corporate Electronic Funds
    Transfer database is a staging table located on a platform in Columbus, Ohio,
    that receives files from the CCR database and transmits interface files to
    entitlement and DoD disbursing systems. The Corporate Electronic Funds
    Transfer allows a single source of information to be shared by all entitlement
    and DoD disbursing systems, thereby streamlining the electronic funds
    enrollment and payment processes.

    Vendor Pay Inquiry System. The Vendor Pay Inquiry System (VPIS) and
    Mechanization of Contract Administration Services (MOCAS) VPIS are two
    separate applications developed for the convenience of contractors and vendors
    doing business with the DoD. The VPIS and MOCAS VPIS interactively
    provide information on invoices submitted against DoD contracts that Defense
    Finance and Accounting Service (DFAS) is responsible for paying. These
    systems consolidated the contract data obtained from the DFAS sites into one
    central repository that contains all open contracts, plus any payments made
    within the last 90 days.

    Commercial Pay Business Line. DoD makes commercial payments through
    the Commercial Pay Business Line. DFAS capitalized all commercial payment
    resources under the Commercial Pay Business Line, effective April 1, 2001.
    The Commercial Pay Business Line includes DFAS personnel performing
    contract, vendor, and transportation pay as well as contract debt management
    functions. The Commercial Pay Business Line includes two product lines:
    contract pay and vendor pay.



                                        1
         Contract Pay Product Line. The Contract Pay Product Line
  encompasses the payment of contractors through formal long-term contractual
  instruments. These contracts are typically administered by the Defense Contract
  Management Agency. The Contract Pay Product Line makes payments using
  the MOCAS in Columbus, Ohio.

          Vendor Pay Product Line. The Vendor Pay Product Line encompasses
  entitlement determination for contracts not administered by Defense Contract
  Management Agency, transportation payments, and miscellaneous payments to
  businesses and individuals. Vendor payments are made at 23 DFAS locations
  using 14 different systems including Computerized Accounts Payable System for
  Windows, Defense Integrated Subsistence Management System, Integrated
  Accounts Payable System, and Standard Accounting and Reporting System.
  Tax Identification Number. Tax Identification Numbers (TINs) are 9-digit
  identifying numbers used by individuals and companies for income tax purposes.
  Every contractor and vendor doing business with the DoD is required to furnish
  its TIN under section 7701, title 31, United States Code, (31 U.S.C 7701)
  (1999). The TIN is a mandatory requirement for registration in the CCR and
  must be provided in order to have a valid CCR registration.

  Contractor and Government Entity Code. The Contractor and Government
  Entity (CAGE) Code is a five-character identification number used extensively
  within DoD. CAGE Codes are used to support a variety of mechanized systems
  throughout the Government and provide a standardized method of identifying a
  given facility at a specific location. The Defense Logistics Information Service
  in Battle Creek, Michigan is the only authorized source of CAGE Codes.
  Contractors and vendors with assigned CAGE codes were not always registered
  in the CCR database, which was indicative of a need for tighter management
  controls. We considered the payments where the CAGE Codes in the payment
  systems did not match the CAGE Codes in the CCR database to be a high-risk
  indicator of the contractor not having a valid TIN registered in the CCR
  database. For greater detail about the transactions we reviewed, based on
  CAGE Codes, see the methodology discussion in Appendix A.


Objectives
  This is the second and final report on the “Audit of Controls over Tax
  Identification Numbers.” The first Report, No. D-2001-114, “DoD Contractor
  Debt Collection Process,” May 7, 2001, evaluated the controls associated with
  the List of Contractors Indebted to the United States. The objective of the
  current audit was to follow up on Recommendation 1 of Inspector General of the
  Department of Defense (IG DoD) Audit Report No. 95-234, “Department of
  Defense Compliance with Federal Tax Reporting Requirements,”
  June 14, 1995. Recommendation 1 required the DoD to establish management
  controls to assure that contracting officers obtain TINs and provide them to
  DoD paying offices. Specifically, the audit determined the validity of the
  contractor’s registration in the CCR database at the time of payment and


                                     2
whether the TIN was included in the payment system. We also evaluated the
effectiveness of the management control program as it related to the audit
objective.

The audit announcement included a third primary objective to follow up on
Recommendations B.2.a. of IG DoD Audit Report No. 96-038, “Debt
Collection and Deposit Controls in the Department of Defense”
December 11, 1995. Recommendation B.2.a. required the establishment of
performance standards for critical debt collection techniques. The third
objective was not accomplished because DoD had implemented a new
Contractor Debt Management System and it was too early to perform a
follow-up audit. See Appendix A for a discussion of the audit scope,
methodology, and our review of the management control program. See
Appendix B for prior coverage.




                                  3
           A. Validity of Registration in the Central
              Contractor Registration Database
               DoD did not adequately implement our recommendation from a
               previous audit report requiring contracting officers to obtain TINs
               and provide them to DoD paying offices. A judgmental review of
               4,607 payments with mismatched identity codes showed
               1,297 payments, totaling $270.4 million, were made to contractors
               and vendors that were not properly registered in the Central
               Contractor Registration database at the time of payment. DFAS
               made these payments to contractors and vendors without proper
               registrations because DFAS personnel did not always review the
               CCR database before making payments. As a result, the tax
               identification numbers were not available for proper reporting of
               contractor and vendor payments for income taxes and for debt
               recovery.

CCR Database Requirements
    Defense Federal Acquisition Regulation Supplement (DFARS) subpart 204.73,
    “Central Contractor Registration,” March 16, 2000, prescribes requirements,
    policies, and procedures for contractor registration in the DoD CCR database to
    comply with the Debt Collection Improvement Act of 1996. Prospective
    contractors must be registered in the CCR database prior to award of a contract,
    basic agreement, basic ordering agreement, or blanket purchase agreement.
    Exceptions to this requirement include the following:

           •   purchases paid for with a Government-wide commercial purchase
               card;

           •   awards made to foreign vendors for work performed outside the
               United States;
           •   classified contracts or purchases when registration in the CCR
               database, or use of CCR data, could compromise the safeguarding of
               classified information or national security;

           •   contracts awarded by deployed contracting officers in the course of
               military operation; and

           •   purchases to support unusual or compelling needs of the type
               described in Federal Acquisition Regulation 6.302-2, “Unusual and
               Compelling Urgency.”

    DFARS 252.204-7004, “Required Central Contractor Registration,” states that
    by submission of an offer, the offeror acknowledges the requirement that a
    prospective awardee must be registered in the CCR database prior to award,



                                        4
        during performance, and through final payment of any contract resulting from
        this solicitation, except for awards to foreign vendors for work to be performed
        outside the United States.

        DFARS 252.204-7004 also states that the contractor is responsible for the
        accuracy and completeness of the data within the CCR database, and for any
        liability resulting from the Government’s reliance on inaccurate or incomplete
        data. To remain registered in the CCR database after the initial registration, the
        contractor is required to confirm annually that its information in the CCR
        database is accurate and complete.


CCR Database Registration at the Time of Payment
        DoD did not adequately implement Recommendation 1 in IG DoD Report
        No. 95-234, “Department of Defense Compliance with Federal Tax Reporting
        Requirements,” June 14, 1995. Recommendation 1 required contracting
        officers to obtain TINs and provide them to DoD paying offices. A judgmental
        review of 4,607 payments DFAS made between March and July 2001 showed
        1,297 payments, totaling $270.4 million, were made to contractors and vendors
        that were not properly registered in the CCR database at the time of payment.
        The 4,607 commercial payments, totaling $460.0 million, were considered to be
        at a higher risk for improper registration in the CCR database because the
        CAGE Codes in the payment systems and the June 2001 CCR database did not
        match. These contractors and vendors were not registered in the CCR database,
        their registration had expired in the CCR database, their registration was
        incomplete, or their registration had been deleted at the time of payment.
        Table 1 identifies the status of contractors’ and vendors’ registrations in the
        CCR database for the payments we reviewed.

                      Table 1. Status of Registration in the CCR Database
             Classification of             Number of Payments               Percentage of Total
                Payments                       Reviewed                     Payments Reviewed1
           Invalid Registration                        985                            21.4

          Expired Registration                         312                             6.7

                 Sub-total                            1,297                          28.1

            Valid Registration                        2,887                           62.7
             Registration Not                          423                             9.2
                Required
                   Total                              4,607                         100.0


   1
       These percentages cannot be projected to the total population of 376,284 payments with
       mismatched contractor identity codes discussed in Appendix A.



                                                  5
Invalid Registration. There were 985 payments (21.4 percent) made to
contractors and vendors whose CCR registrations were invalid at the time of
payment. Of the 985 payments, 40 payments went to contractors that did not
have complete registrations in the CCR database. There were 930 payments
made despite the fact that the CAGE Code and the contractor or vendor name
were not registered in the CCR database at the time of payment. For example,
the DFAS San Bernardino Vendor Pay Site paid a company on March 29, 2001,
although the company was not registered in the CCR database. The company
did not register in the CCR database until May 10, 2001. There were
13 payments made to contractors that had an obsolete CAGE Code and did not
have another CAGE Code registered in the CCR database at the time of
payment. For the remaining two payments, the vendor had deleted their
registration in the CCR database. For example, DFAS San Diego paid a vendor
on April 10, and May 25, 2001, although the CCR database showed that the
vendor’s registration was deleted on November 17, 2000. DFAS personnel did
not check the registration in the CCR database prior to making payments.
These payments should not have been made until the contractor or vendor was
properly registered in the CCR database.

Expired Registration. There were 312 payments (6.7 percent) made to
contractors and vendors whose registrations were expired in the CCR database
at the time of payment. The contractors or vendors had valid registrations in the
CCR database at one time, but the registrations expired before the payment was
made. These payments should not have been made until the contractor had a
valid registration. For example, the DFAS Columbus Vendor Pay Site paid a
company on March 22, 2001, although their CCR database registration had
expired on May 6, 2000. This payment was made 320 days after registration in
the CCR database expired. Payments were made to contractors and vendors
with expired registrations because DFAS personnel did not check the CCR
database registration before the payments were made. In accordance with
DFARS 252.204-7004, contractors and vendors are required to be registered in
the CCR database through final payment on the contract.

Valid Registration. There were 2,887 payments (62.7 percent) made to
contractors and vendors with valid registrations in the CCR database at the time
of payment. Of the 2,887 payments, 821 payments were considered to have a
valid registration with the same CAGE Code that was in the payment system.
There were 302 payments where the contractor or vendor had a registration that
was valid in the CCR database at the time of payment but under a replacement
CAGE Code. The remaining 1,764 payments were made to contractors or
vendors that had a valid registration in the CCR database at the time of payment
but under a CAGE Code different from that in the payment system.

Registration Not Required. There were 423 payments (9.2 percent) made to
recipients not required to register in the CCR database. Of the 423 payments,
255 payments were made to foreign contractors. We could not determine the
status of 6 payments. The remaining 162 payments were considered
miscellaneous payments for training, legal claims, casualties, suggestion
awards, and uniforms.



                                    6
TIN Availability
     The payment systems did not always include the TIN because DFAS personnel
     were not reviewing the CCR database before making payments. DFAS did not
     have procedures in place requiring that payments be withheld until contractors
     and vendors updated the CCR database; therefore, there was no incentive for
     DFAS personnel to review the CCR database. Our sample included
     2,089 contract and vendor payments that did not include the TIN in the payment
     systems and therefore lacked TIN information for proper reporting of contractor
     and vendor payments for income tax purposes and possible debt recovery.

     The action DoD took, establishing CCR, to implement Recommendation 1 in
     Audit Report No. 95-234 was not fully effective because essential management
     controls were not in place. The lack of TIN information also exposed the
     payment systems to potential fraud. We documented acts of potential fraud by
     contractors and vendors providing invalid TINs in the CCR database. We
     referred 183 cases of possible fraudulent actions to the Defense Criminal
     Investigative Service for investigation on October 29, 2001. DFAS needs to
     withhold payments to contractors and vendors when processing payments with
     missing or inaccurate TIN information.


Subsequent DoD Actions
     In March 2002, the Under Secretary of Defense (Comptroller) issued DoD
     Regulation 7000.14-R, “Financial Management Regulation,” volume 10,
     chapter 1, “Financial Control of Vendor and Contract Payments” regarding
     registration in the CCR and electronic funds transfer (EFT) payments. This
     guidance allows DFAS to charge additional fees to DoD Components until the
     DoD Component ensures that the contract includes the clauses providing for
     CCR database registration and payment by EFT. However, these procedures
     will not be effective if DFAS personnel do not verify that valid TINs are in the
     payment systems and withhold payments until contractors and vendors are
     properly registered in the CCR database.


Recommendation and Management Comments
     A. We recommend that the Director, Commercial Pay Services, Defense
     Finance and Accounting Service establish procedures to withhold payments
     to contractors and vendors until they are properly registered with a valid
     Tax Identification Number in the Central Contractor Registration database.

     Management Comments. DFAS concurred and agreed that a method or
     process is needed to ensure that the Government’s interest is protected from
     unlawful misappropriation of funds and proper tax liabilities are assessed when
     disbursements are made to contractors or vendors. DFAS agreed to use an
     existing query application specific to contractor pay to extract an exception
     report for contractors not properly registered in the Central Contractor


                                         7
           B. Payments Using Electronic Funds
              Transfer
           A judgmental review of 1,033 vendor payments DFAS made by check
           showed that 345 should have been made by electronic funds transfer
           (EFT). The 1,033 vendor payments were made between March and
           July 2001. Specifically, DFAS made 327 check payments for
           $1.2 million that should have been made by EFT. DFAS also made
           18 payments totaling $126,694 by check that should have been made
           using the Online Payments and Collection System. DFAS guidance for
           implementing EFT payments was inadequate and contained EFT payment
           exemptions that were not consistent with statutory requirements. As a
           result, DFAS payment processes were not in full compliance with
           Title 31, U.S.C. 3332. Also, DFAS incurred higher administrative costs
           making payments by check.


EFT Requirements
    The Debt Collection Improvement Act of 1996, as codified in 31 U.S.C.
    Section 3332, “Required Direct Deposit,” requires that all Federal payments
    made after January 1, 1999, be made using EFT unless a payment meets
    specific waiver requirements. EFT is defined as any transfer of funds other
    than a transaction originating by cash, check or similar paper instrument. The
    Department of Treasury in 31 Code of Federal Regulations (C.F.R.) Subpart
    208.3, “Payment by Electronic Funds Transfer,” and Subpart 208.4,
    “Waivers,” allows specific waivers to the EFT requirements. The Federal
    Acquisition Regulation subpart 32.11, “Electronic Funds Transfer,” requires
    that EFT be used for making contract payments. Based on these criteria, most
    payments we reviewed should have been made using EFT.

    Federal Payment Defined. 31 C.F.R. Section 208.2 defines Federal payment
    as including, but not limited to:

           •   Federal wage, salary, and retirement payments;

           •   vendor and expense reimbursement payments;

           •   benefit payments; and

           •   miscellaneous payments such as interagency payments; grants; loans;
               fees; principal, interest, and other payments related to U.S.
               marketable and nonmarketable securities; overpayment
               reimbursements; and payments under Federal insurance or guarantee
               programs for loans.




                                       9
    EFT Waivers. 31 C.F.R. Section 208.4 allows waivers of the EFT
    requirement when:

           •   an individual determines that payment by EFT would impose a
               hardship;

           •   the infrastructure in a foreign country does not support payment by
               EFT;

           •   the payment is to a recipient within a disaster area;

           •   a military operation or a call to order to active duty members of the
               uniformed services is made during a war or national emergency;
           •   a threat may be posed to national security;

           •   the agency does not expect to make more than one payment to the
               same recipient within a one-year period; and

           •   an agency's need for goods or services is of such unusual and
               compelling urgency, or there is only one source of goods or services,
               that the Government would be seriously injured unless payment is
               made by a method other than EFT.


Method of Payment
    A judgmental review of 1,033 vendor payments DFAS made by check showed
    that 345 should have been made by EFT. DFAS made the payments between
    March and July 2001. Of the 345 improper check payments, 327 payments
    totaling $1.2 million were made by check instead of EFT. The 327 check
    payments did not meet waiver requirements contained in 31 C.F.R.
    Section 208.4. DFAS also made 18 payments for $126,694 by check that
    should been have made using the Online Payments and Collection System. The
    Online Payments and Collection System is an automated means by which billing
    information is transmitted between Federal agencies through a commercial time-
    sharing service by way of a telecommunications network. Table 2 shows the
    methods of payment for the 1,033 payments reviewed.




                                        10
                          Table 2. Methods of Payment
                                                 Number of      Percentage of
          Classification of Payments
                                                  Payments       Payments2
Improper Check Payments
   Vendors properly registered in CCR           76
   Vendors not registered in CCR               126
   Payments to individuals                      76
   Payments to Government Agencies              67
     Number of Improper Check Payments                     345*          33.4
Method of payment could not be determined                     2           0.2
Proper Check Payments                                        17           1.6
EFT Payments                                                669          64.8
    Total                                                1,033          100.0

          *Represents 327 payments that should have been made by EFT and 18 payments to
          Federal agencies that should have been made using the Online Payment and Collection
          System.




     Vendors Properly Registered. Vendors for 76 of the improper check payments
     were registered in the CCR database and the EFT information was included with
     their CCR registration. DFAS personnel did not check the CCR database to
     determine if the vendors were registered. For example, DFAS San Bernardino
     made a payment to a vendor by check on April 11, 2001. The vendor had an
     active registration in the CCR that was valid through August 11, 2001 and
     should have been paid using EFT.

     Vendors Not Registered. Vendors for 126 of the improper check payments
     were not properly registered in the CCR database. DFAS should not have made
     payments to vendors that were not registered in the CCR database. DFAS did
     not ensure that contractors and vendors receiving miscellaneous payments were
     properly registered in the CCR database so payments could be made using EFT.
     The DoD Regulation 7000.14-R, “Financial Management Regulation,”
     volume 10, chapter 12, “Miscellaneous Payments” includes payments made to
     individuals, telephone companies, and bankcard service companies.

     Payments to Individuals. Government employees received 76 of the improper
     check payments that should have been made using EFT. As Federal employees,
     they would already receive Federal salary payments by EFT. DFAS did not use
     this available information before making the 76 check payments.



2
    The percentages for the classification payments are related to the total 1,033 payments sampled
    and cannot be projected to the population of payments that the sample was selected.



                                               11
    Payments to Other Government Agencies. DFAS made 67 improper check
    payments to other Government agencies. The Online Payment and Collection
    System should have been used for 18 of the payments made to Federal agencies.
    The remaining 49 payments were made to state and local governments and
    should have been made by EFT.

    Method of Payment Could not be Determined. For two of the payments,
    DFAS personnel were unable to provide documentation.


DFAS Payment Guidance
    The DFAS guidance of January 27, 2000, mandating EFT payments was
    inadequate. The DFAS guidance implemented guidance in a
    December 30, 1999, Under Secretary of Defense (Comptroller) memorandum
    mandating EFT payments. However, the DFAS guidance included exemptions
    that were not included or incorporated in the 31 C.F.R. 208.4. Those DFAS
    exemptions included payments to the following:

       •   sole proprietors,

       •   utility companies, and

       •   common carriers under Government bills of lading.

Conclusion
    The purpose of making EFT payments is to avoid administrative errors and to
    save time and money. DFAS vendor pay sites were not consistent in
    implementing the DFAS and DoD guidance. For example, DFAS Norfolk in
    Norfolk, Virginia, paid a vendor by EFT while DFAS Limestone in Limestone,
    Maine, paid the same vendor by check. IG DoD Report No. D-2002-113,
    “Controls Over the Computerized Accounts Payable System at Defense Finance
    and Accounting Service Columbus,” June 21, 2002, included recommendations
    that DFAS make all payments by EFT unless properly waived and that
    contractors and vendors receiving miscellaneous payments are properly
    registered in CCR. The Office of the Under Secretary of Defense (Comptroller)
    concurred with the recommendations and updated volume 10, chapter 1, of the
    DoD Regulation 7000.14-R. The updated chapter requires the use of EFT for
    all payments using vendor pay systems unless the requirement is properly
    waived in accordance with 31 C.F.R. section 208.4. Therefore, we did not
    include any recommendations on making EFT payments in this report.




                                      12
Appendix A. Scope and Methodology
   DFAS makes 11 million commercial payments for more than $150 billion,
   annually. In IG DoD Report No. 95-234, “Department of Defense Compliance
   With Federal Tax reporting Requirements,” June 14, 1995, we reported that
   DoD contracting offices were not obtaining contractor payment information or
   maintaining accurate records needed for tax reporting. The purpose of this audit
   was to review DoD implementation of Recommendation 1 in Audit Report
   No. 95-234, requiring contracting officers to obtain TINs and provide them to
   DoD paying offices. Contractors and vendors are now required to register in
   the CCR database before award of a contract and DFAS can review the CCR
   database for the TIN. Therefore, we judgmentally reviewed 4,607 payments
   totaling $460.0 million made between March and July 2001 using contract and
   vendor pay systems. We limited our review to the validity of the contractor and
   vendor registration in the CCR database at the time of payment and whether the
   TIN was included in the payment system.

   We reviewed the June 2001 CCR database and identified potential acts of fraud.
   We documented acts of potential fraud by contractors and vendors providing
   invalid TINs in the CCR database. We referred 183 cases of possible fraudulent
   activity to the Defense Criminal Investigative Service on October 29, 2001.
   The Defense Criminal Investigative Service is investigating the cases.

   We obtained payment data (1,096,160 payments) from MOCAS VPIS and
   VPIS. The payments we reviewed were made between March and July 2001.
   We also obtained the May 2000, and April through July 2001 CCR databases.
   We designed a query to identify payments that were made to contractors and
   vendors who were not registered in the June 2001 CCR database. We designed
   the query based on the CAGE Code because this was a common field between
   the payment data from MOCAS VPIS, VPIS, and the data in the June 2001
   CCR database. Our query identified 376,284 payments where the CAGE Code
   in MOCAS VPIS and VPIS did not match the CAGE Code in the June 2001
   CCR database. We considered these payments to be at higher risk for improper
   registration in the CCR database. We judgmentally reviewed 4,607 of these
   payments. Of the 4,607 payments we reviewed, 3,574 payments were made
   through the Contract Pay Product Line and 1,033 payments were made through
   the Vendor Pay Product Line. Table A. shows the payment sites, payment
   systems, and number of payments reviewed.




                                      13
  Table A. Pay Sites, Pay Systems, and Number of Payments Reviewed
          Pay Sites                 Pay System                 Number Payments
                                                                  Reviewed
 Columbus, Ohio                       MOCAS                         3,574
                                               1
 Columbus, Ohio                       DISMS                         143
                                                   2
 Columbus, Ohio                      CAPS(W)                         90
 Norfolk, Virginia                   CAPS(W)                         100
 Rome, New York                      CAPS(W)                        100
 Limestone, Maine                      IAPS3                        150
 San Bernardino, California             IAPS                         150
                                           4
 Charleston, South Carolina      STARS One Pay                       150
 San Diego, California            STARS One Pay                      150
  Total                                                             4,607
          1
            Defense Integrated Subsistence Management System
          2
            Computerized Accounts Payable System for Windows
          3
            Integrated Accounts Payable System
          4
            Standard Accounting and Reporting System


We reviewed all the payments in MOCAS where the CAGE Code did not match
the June 2001 CCR database. We used a two-stage sampling approach to select
vendor payments for review. We did not include payments made outside the
continental United States in our sample selection. Also, we did not review
100 vendor payments selected from Columbus Computerized Accounts Payable
System for Windows because they were all miscellaneous payments. We did
not include our analysis of payments made from the Automated Voucher
Examination Disbursing System because the file included payments made prior
to the establishment of the CCR database. We also did not include our analysis
of 7 payments from the Defense Integrated Subsistence Management System,
and 10 payments from the Computerized Accounts Payable System for Windows
(Columbus, Ohio), and 1,062 payments from MOCAS because these payments
were pending at the time of our review. We did not review contract payments
to determine if they were properly made using EFT. The sample selected could
not be projected because the total population could not be determined.

We determined the status of a contractor’s or vendor’s registration in the CCR
database at the time of payment by using payment data we obtained from
MOCAS VPIS, VPIS, the payment systems, and hardcopy payment files to
search the May 2000, and April through July 2001 CCR databases. We also
searched the online version of the CCR database for a registration for the
contractor or vendor. In addition, we reviewed laws and regulations applicable
to contractor and vendor registration in the CCR database and EFT payments.
We also interviewed DFAS personnel involved in the payment process.



                                      14
    We performed this audit from May 2001 through July 2002, in accordance with
    generally accepted government auditing standards.

    Use of Technical Assistance. We obtained assistance from the IG DoD,
    Quantitative Methods Division, in selecting a judgmental sample of payments to
    review. Table A. shows the number of samples selected by pay location and
    pay system. The audit results were not projected to the population.

    Computer-Processed Data. We relied on computer-processed data from the
    pay systems listed in Table A. Although we did not perform a formal reliability
    assessment of those systems, we determined that the payment information they
    contained generally agreed with hardcopy payment files. We did not find any
    errors that would preclude the use of the computer-processed data to meet the
    audit objectives or that would change the conclusions in the report.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38 “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of management controls over DoD processes and procedures for
    verifying that a contractor or vendor was registered in the CCR database prior
    to making payment at DFAS Contract Pay and DFAS Vendor Pay Sites and for
    making payments by EFT at DFAS Vendor Pay sites. We also reviewed
    management's self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses as defined by DoD Instruction 5010.40. Controls over the
    DoD contract and vendor payment processes were not adequate to ensure that
    contractors and vendors were registered in the CCR database prior to receiving
    payment, that vendors were paid by EFT, and that contractors posed a valid
    TIN prior to payment. Specifically, inconsistent management controls between
    the DoD payment sites allowed for inconsistent payment practices. In addition,
    management controls were not in compliance with the Debt Collection
    Improvement Act of 1996 and the DoD Financial Management Regulation.

    The recommendation in this report, if implemented, will improve controls over
    determining whether contractors are registered in the CCR database prior to
    making payment. A copy of the report will be provided to the senior official
    responsible for management controls in DFAS.



                                       15
Adequacy of Management’s Self-Evaluation. DFAS officials identified
Contract Pay and Vendor Pay as assessable units. However, in their evaluation,
DFAS did not identify or report the material control weaknesses that allowed
contractors who were not registered in the CCR database to be paid and that
allowed vendors to improperly be paid by check rather than by EFT.

In commenting on a draft of this report, DFAS Columbus Center non-concurred
with our conclusion that the lack of controls over the DoD contract and vendor
payment processes was a material weakness related to the commercial pay
entitlement process. However, DFAS agreed that controls were needed to
identify contactors that are not properly registered in the CCR prior to payment,
and to ensure payments are withheld until proper registration is complete.
DFAS plans to require Commercial Pay Business Line Activities to insert CCR
controls in the appropriate assessable unit management control matrices to
ensure continuous monitoring and compliance with the law until the issue is
corrected. The management comments also outlined two system changes that
will help address the problem. See the Management Comments section for a
complete text of DFAS comments.




                                   16
Appendix B. Prior Coverage
   During the last 5 years, the General Accounting Office (GAO) and the IG DoD
   have issued six reports discussing vendor payments. Unrestricted GAO reports
   can be accessed over the Internet at http://www.gao.gov. Unrestricted IG DoD
   reports can be accessed at http://www.dodig.osd.mil/audit/reports.

GAO
   GAO Report No. GAO/AIMD-98-274 (OSD Case No. 1687), “Improvements
   Needed in Air Force Vendor Payment Systems and Controls,” September 28,
   1998

IG DoD
   IG DoD Report No. D-2002-113, “Controls Over the Computerized Accounts
   Payable System at Defense Finance and Accounting Service Columbus,”
   June 21, 2002

   IG DoD Report No. D-2002-056, “Controls Over Vendor Payments Made for
   the Army and Defense Agencies Using the Computerized Accounts Payable
   System,” March 6, 2002

   IG DoD Report No. D-2002-008, “Controls Over the Computerized Accounts
   Payable System at Defense Finance and Accounting Service Kansas City,”
   October 19, 2001

   IG DoD Report No. D-2001-114, “ DoD Contractor Debt Collection Process,”
   May 7, 2001

   IG DoD Report No. D-2000-139, “Controls Over the Integrated Accounts
   Payable System,” June 5, 2000

   IG DoD Audit Report No. 96-038, “Debt Collection and Deposit Controls in the
   Department of Defense,” December 11, 1995

   IG DoD Report No. 95-234, “Department of Defense Compliance with Federal
   Tax Reporting Requirements,” June 14, 1995




                                    17
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director for Acquisition Initiatives
  Director, Defense Procurement
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy

Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                          18
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         19
Defense Finance and Accounting Service
Comments




                      21
22
23
24
Team Members
The Defense Financial Auditing Service, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Marvin L. Peek
Jack L. Armstrong
Lusk F. Penn
N. Dale Gray
Andrew D. Gum
Mark R. Gott
Ryan N. Pike
Sarah A. Buelo
